                                                    NAnONAL SCIENCE FOUNDA nON
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESnGAnONS

                                               CLOSEOUT MEMORANDUM

                         Al1060040                                                            Page 1 of 1



                 We investigated an allegation in which there was a small amount of plagiarism in two NSF
         proposals 1 written by the subject. 2 We wrote to the subject, who responded that the proposals were
         not plagiarized because she gave adequate references to the sources ofthe information. We did not
         concur with her explanation, but, because ofthe modest amount ofthe plagiarized material, we sent
         her a letter reiterating NSF's standards for citation and acknowledgement, and admonishing her to
         comply with those standards henceforth.

                   Accordingly this case is closed with no further action taken.




NSF OIG Fonn 2 (11102)
